No. 20-222
IN THE

Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
BRIEF OF AMICI CURIAE
PUBLIC CITIZEN AND
PUBLIC CITIZEN FOUNDATION
IN SUPPORT OF RESPONDENTS
WENDY LIU
Counsel of Record
SCOTT L. NELSON
ALLISON M. ZIEVE
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
wliu@citizen.org
Attorneys for Amici Curiae

March 2021

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICI CURIAE ................................ 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ............................................................... 4
I.

The “generic” nature of a misstatement
does not bar class certification. ........................... 4
A. At the certification stage of a
securities-fraud class action, the critical
question is whether common issues
predominate. .................................................. 5
B. An argument that a misrepresentation
was too “generic” to support reliance is
not a basis for denying certification. ........... 11

II. Evidence relating to the nature of a
misstatement is pertinent at the certification
stage only to the extent that it is relevant to
assessing whether defendants have
rebutted Basic’s presumption of reliance. ......... 15
III. Expanding certification determinations
to require proof of merits issues undermines
Rule 23’s purposes. ............................................. 20
CONCLUSION.......................................................... 22

ii
TABLE OF AUTHORITIES
Cases

Page(s)

Amchem Prods., Inc. v. Windsor,
521 U.S. 591 (1997) ................................. 2, 6, 7, 21
Amgen, Inc. v. Conn. Ret. Plans & Trust Funds,
568 U.S. 455 (2013) ......................................passim
Basic Inc. v. Levinson,
485 U.S. 224 (1988) ......................................passim
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) ....................................... 6, 7, 9
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ......................................passim
Smith v. Bayer Corp.,
564 U.S. 299 (2011) ............................................. 21
Tellabs, Inc. v. Major Issues & Rights, Ltd.,
551 U.S. 308 (2007) ............................................... 7
TSC Indus., Inc. v. Northway, Inc.,
426 U.S. 438 (1976) ............................................... 8
Tyson Foods, Inc. v. Bouaphakeo,
136 S. Ct. 1036 (2016) ................................. 2, 6, 13
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011) ..................................... 2, 7, 13
Statutes, Regulations, and Rules
15 U.S.C. § 78j(b) ........................................................ 7
17 C.F.R. § 240.10b–5(b)............................................. 7
Fed. R. Civ. P. 23 .................................................... 5, 6
Fed. R. Civ. P. 23, Advisory Committee Notes
to 1966 Amendments, Subdivision (b)(3)) .... 21, 22

INTEREST OF AMICI CURIAE1
Public Citizen and Public Citizen Foundation (collectively, Public Citizen) are nonprofit consumer advocacy organizations with members and supporters
nationwide. Public Citizen advocates before Congress,
administrative agencies, and the courts on a wide
range of issues, and works for enactment and enforcement of laws protecting consumers, workers, and the
public. Public Citizen often represents its members’
interests in litigation and as amicus curiae.
Public Citizen believes that class actions are an
important tool for seeking justice where a defendant’s
wrongful conduct has harmed many people and resulted in injuries that are large in the aggregate, but
not cost-effective to redress individually. In that situation, a class action offers the best means for both individual redress and deterrence, while also serving
the defendant’s interest in achieving a binding resolution of the claims on a broad basis, consistent with due
process. Class actions have historically played a vital
role in civil rights cases, consumer cases, and, of particular relevance here, securities fraud cases.
At the same time, Public Citizen has long recognized that class actions may be used to the detriment
of absent class members and defendants in circumstances where the requirements of Federal Rule of
Civil Procedure 23 are not satisfied. The interests of
both named and absent class members, defendants,
––––––––––––––––––––––––
Pursuant to Rule 37.6 of this Court, amici curiae state that
this brief was not written in whole or in part by counsel for a
party and that no one other than amici curiae or their counsel
made a monetary contribution to the preparation or submission
of this brief. Counsel for both parties have consented in writing
to its filing, through blanket consents filed with the Court.
1

2
the judiciary, and the public at large are best served
by adherence to the principles incorporated in Rule
23. These principles are in turn informed both by the
Due Process Clause and by the considerations of fairness and efficiency that led to the creation of the modern version of Rule 23 in 1966 and to the many refinements of the Rule that have occurred since then. Public Citizen has sought to advance this view by participating, either as counsel or amicus curiae, in many of
this Court’s decisions that are relevant to the issues
posed by this case, including Amchem Products, Inc.
v. Windsor, 521 U.S. 591 (1997), Wal-Mart Stores, Inc.
v. Dukes, 564 U.S. 338 (2011), Amgen, Inc. v. Connecticut Retirement Plans & Trust Funds, 568 U.S. 455
(2013), and Tyson Foods, Inc. v. Bouaphakeo, 136 S.
Ct. 1036 (2016). Public Citizen believes that the submission of this brief may be similarly helpful to the
Court in resolving this case.
SUMMARY OF ARGUMENT
The court of appeals correctly rejected Goldman
Sachs’s argument that class certification is barred “as
a matter of law” in cases alleging misstatements that
are “generic” in nature. Goldman argued below that
generic statements are incapable of having price impact as a matter of law because, in Goldman’s view, no
reasonable investor would rely on such statements. As
the Second Circuit recognized, accepting Goldman’s
approach would inject a determination of the common
issue of materiality into the class-certification decision, contrary to this Court’s decisions interpreting
Rule 23.
A categorical rule precluding class certification because of the assertedly generic nature of a misstatement would both misconstrue Rule 23(b)(3)’s

3
predominance requirement and overrule Amgen, Inc.
v. Connecticut Retirement Plans & Trust Funds, 568
U.S. 455 (2013), which held that arguments that an
alleged misrepresentation is immaterial may not be
resolved at the certification stage. Whether the generic nature of a misstatement renders it incapable as
a matter of law of influencing a reasonable investor is
an objective question that can be resolved on a classwide basis. Thus, the inquiry is one of the common
questions that predominates in a securities-fraud
class action, and the claims of the class rise or fall depending on how it is resolved. Because the generic nature of a misstatement does not bear on whether any
one plaintiff is differently situated from another, it is
not a pertinent consideration at the certification
stage.
A court may consider evidence regarding the generic nature of a misstatement at the certification
stage only to the extent that such evidence bears on
the existence and predominance of common issues
meriting classwide resolution. Such evidence may, for
example, be relevant to determining whether the defendants have rebutted the presumption of classwide
reliance under Basic Inc. v. Levinson, 485 U.S. 224
(1988), by showing that the alleged misrepresentations had no price impact. If defendants adduce factual evidence showing the absence of price impact for
a generic misstatement, the court may consider that
evidence, along with other evidence, in the court’s assessment of price impact.
Below, the lower courts did not bar presentation of
such evidence: They considered and rejected Goldman’s evidence that the fall in its stock price was attributable to the news of government enforcement actions against Goldman, rather than to the revelation

4
that its supposedly generic statements about its conflict-of-interest policies and practices were false. By
contrast, the lower courts properly rejected Goldman’s
request that they resolve at the certification stage the
question whether the statements were too generic to
influence a reasonable investor—that is, the common
question of materiality that Amgen held may not be
considered at the certification stage.
Although Goldman contends that the decision below adversely affects defendants through increased
pressure to settle, adopting Goldman’s rule would impose greater costs on the courts and both parties. Requiring plaintiffs to prove, at the certification stage,
that they will prevail on common merits issues in
their case would expand the scope of pre-certification
proceedings and burden the courts and the parties
with what would amount to two trials on the merits.
Further, shifting the resolution of merits questions to
the certification stage would undercut Rule 23’s goals
of efficiency, fairness, and repose. Even if a defendant
prevailed on a merits issue common to the class, the
resolution of that issue would not bind members of the
putative class and accordingly would not protect the
defendant against successive suits.
ARGUMENT
I.

The “generic” nature of a misstatement does
not bar class certification.

The decision below correctly rejected Goldman’s
argument that the generic nature of a misstatement
bars class certification because generic misstatements
“are incapable of impacting a company’s stock price as
a matter of law,” Pet. C.A. Br. 46. The United States,
in an amicus brief filed in support of neither party,
agrees with the court of appeals that adopting

5
Goldman’s categorical rule would be improper as a
substantive matter: Generic statements are not necessarily insignificant to reasonable investors. U.S. Br.
17.
Goldman’s argument is also incorrect for a more
fundamental reason: Even if generic misstatements
were incapable of affecting the choices of reasonable
investors, that proposition would be irrelevant to the
certification inquiry. Rule 23(b)(3) certification depends on the existence of common issues that predominate over individual questions. Whether a statement
is incapable as a matter of law of impacting stock
prices because it is too generic to be relied upon by a
reasonable investor—that is, whether the statement
is immaterial—is itself one of the common merits
questions that a class action exists to resolve. A categorical rule precluding class certification because of
the generic nature of a misstatement would contravene well-settled principles of class-action law and
overrule Amgen’s holding that “plaintiffs are not required to prove materiality at the class-certification
stage” because “they need not, at that threshold, prove
that the predominating question will be answered in
their favor.” 568 U.S. at 468.
A. At the certification stage of a securitiesfraud class action, the critical question
is whether common issues predominate.
Federal Rule of Civil Procedure 23 sets forth the
requirements for class certification. In addition to satisfying Rule 23(a)’s requirements of numerosity, commonality, typicality, and adequacy of representation,
the plaintiffs also must satisfy the requirements of
one of the “types of class actions” specified in Rule
23(b). Fed. R. Civ. P. 23(b) (providing that “[a] class

6
action may be maintained if Rule 23(a) is satisfied and
if” one of the Rule 23(b) subdivisions is met). Where,
as here, the plaintiffs seek certification under Rule
23(b)(3), the district court must find that “questions of
law or fact common to class members predominate
over any questions affecting only individual members”
(the predominance requirement) and that “a class action is superior to other available methods for fairly
and efficiently adjudicating the controversy” (the superiority requirement). Fed. R. Civ. P. 23(b)(3).
Rule 23(b)(3)’s predominance requirement “does
not require a plaintiff seeking class certification to
prove that each element of her claim is susceptible to
classwide proof.” Amgen, 568 U.S. at 469 (internal
marks and citation omitted). Rather, “[w]hat the rule
does require is that common questions predominate
over any questions affecting only individual class
members.” Id. (internal marks omitted). “[A] common
question is one where the same evidence will suffice
for each member to make a prima facie showing or the
issue is susceptible to generalized, class-wide proof.”
Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036,
1045 (2016) (internal marks omitted). If questions affecting only individual class members do not “overwhelm common ones,” Halliburton Co. v. Erica P.
John Fund, Inc., 573 U.S. 258, 276 (2014) (Halliburton II), the class is “sufficiently cohesive to warrant
adjudication by representation,” Amchem Prods., Inc.
v. Windsor, 521 U.S. 591, 623 (1997).
“Considering whether ‘questions of law or fact common to class members predominate’ begins, of course,
with the elements of the underlying cause of action.”
Erica P. John Fund, Inc. v. Halliburton Co., 563 U.S.
804, 809 (2011) (Halliburton I). Thus, the court must
consider the substantive legal standards applicable to

7
the plaintiffs’ claim. See Wal-Mart Stores, Inc. v.
Dukes, 564 U.S. 338, 351 (2011) (explaining that certification is “enmeshed in the factual and legal issues
comprising the plaintiff’s cause of action” (internal citation omitted)); Amchem, 521 U.S. at 623 (stating
that the predominance “inquiry trains on the legal or
factual questions that qualify each class member’s
case as a genuine controversy”). At this stage,
“[m]erits questions may be considered to the extent—
but only to the extent—that they are relevant to determining whether the Rule 23 prerequisites for class
certification are satisfied.” Amgen, 568 U.S. at 466.
Many of the elements of a securities-fraud claim
under section 10(b) of the Securities Exchange Act of
1934, 15 U.S.C. § 78j(b), and SEC Rule 10b–5, 17
C.F.R. § 240.10b–5(b), are by nature common to all potential class members.2 For example, the answer to
the question whether the defendants made a false or
misleading statement or omission is the same for all
potential class members. The question of scienter—
whether the defendants acted with the “required state
of mind,” Tellabs, Inc. v. Major Issues & Rights, Ltd.,
551 U.S. 308, 313 (2007)—similarly has a singular,
classwide answer. Likewise, because the question of
the materiality of a misrepresentation or omission “is
an objective one, involving the significance of an omitted or misrepresented fact to a reasonable investor,”
––––––––––––––––––––––––
The elements of a securities-fraud claim alleging violations
of section 10(b) and Rule 10b–5 are “(1) a material misrepresentation or omission by the defendant; (2) scienter; (3) a connection
between the misrepresentation or omission and the purchase or
sale of a security; (4) reliance upon the misrepresentation or
omission; (5) economic loss; and (6) loss causation.” Halliburton
I, 563 U.S. at 810 (internal quotation marks and citation omitted).
2

8
its answer does not vary among potential class members. Amgen, 568 U.S. at 467–68 (quoting TSC Indus.,
Inc. v. Northway, Inc., 426 U.S. 438, 445 (1976)). The
very existence of those questions justifies certification,
which enables their resolution on a classwide basis.
But their resolution is not proper at the certification
stage; rather, whether plaintiffs will succeed or fail on
common questions is the inquiry at the merits stage.
The element of reliance on a misrepresentation is
different. The reliance element “ensures that there is
a proper connection between a defendant’s misrepresentation and a plaintiff’s injury.” Halliburton II, 573
U.S. at 267 (quoting Amgen). Whether investors relied
on a particular misrepresentation or omission in determining whether to engage in a securities transaction is not always a question capable of classwide resolution. In circumstances where the element can be
established only by proof of individual investors’ direct reliance on a misrepresentation, “individual issues [of reliance] then would overwhelm the common
ones, making certification under Rule 23(b)(3) inappropriate.” Id. at 268 (quoting Amgen).
In Basic Inc. v. Levinson, 485 U.S. at 247, however,
this Court held that plaintiffs may prove the reliance
element without individualized proof “by invoking a
rebuttable presumption of reliance, rather than proving direct reliance on a misrepresentation.” Halliburton II, 573 U.S. at 268. The so-called Basic presumption of reliance provides that “if a market is shown to
be efficient, courts may presume that investors who
traded securities in that market relied on public, material misrepresentations regarding those securities,”
Amgen, 568 U.S. at 462, through the investors’ “reliance on the integrity of the price set by the market,”

9
id. (internal citation omitted). The Basic presumption
comprises two distinct presumptions:
First, if a plaintiff shows that the defendant’s
misrepresentation was public and material and
that the stock traded in a generally efficient market, he is entitled to a presumption that the misrepresentation affected the stock price. Second, if
the plaintiff also shows that he purchased the
stock at the market price during the relevant period, he is entitled to a further presumption that
he purchased the stock in reliance on the defendant’s misrepresentation.
Halliburton II, 573 U.S. at 279. This Court derived the
Basic presumption from the fraud-on-the-market theory, which posits that “the market price of shares
traded on well-developed markets reflects all publicly
available information, and hence, any material misrepresentations.” Id. at 268 (quoting Basic, 485 U.S.
at 246).
Under Basic, the existence of an efficient market
that incorporates public, material information into a
security’s price allows a court to treat reliance as a
common question, and hence to find that the predominance requirement is satisfied. See Halliburton II,
573 U.S. at 276. By invoking the Basic presumption,
plaintiffs may proceed with an action where questions
common to the class—not only the question of reliance, but also the other common questions of materiality, falsity, scienter, and causation—can be answered cohesively, for all members of the class.
The Basic presumption is “just that”: a presumption. See Halliburton I, 563 U.S. at 811. It can be rebutted through appropriate evidence. See Basic, 485
U.S. at 248 (“Any showing that severs the link

10
between the alleged misrepresentation and either the
price received (or paid) by the plaintiff, or his decision
to trade at a fair market price, will be sufficient to rebut the presumption of reliance.’”). Moreover, the presumption does not determine the outcome of any particular investor’s individual claim of reliance. Instead,
it determines whether the question of reliance can be
given a common, classwide answer—and, therefore,
whether common questions predominate. Thus, as
this Court held in Halliburton II, the Basic presumption may be rebutted at the certification stage by evidence that certain of its fundamental premises—including the existence of an efficient market or the
price impact of the asserted misrepresentation—are
not present. 573 U.S. at 280–84; see also Basic, 485
U.S. at 248–49 (providing examples of showings that
would rebut the Basic presumption).
Nonetheless, the questions presented by the Basic
presumption are relevant at the certification stage
only to the extent that they are probative of “the class
certification requirements of Federal Rule of Civil
Procedure 23.” Halliburton II, 573 U.S. at 284. That
is, questions concerning the application of the presumption are implicated at the certification stage if
their resolution “is needed to ensure that the questions of law of fact common to the class will ‘predominate.’” Id. at 283 (quoting Amgen, 568 U.S. at 467).
Otherwise, the resolution of common liability questions, even if interwoven to some extent with the presumption, “should be left to the merits stage, because
it does not bear on the predominance requirement of
Rule 23(b)(3).” See id. at 282.

11
B. An argument that a misrepresentation
was too “generic” to support reliance is
not a basis for denying certification.
Goldman argued below that the generic nature of
its statements made them categorically incapable, as
a matter of law, of influencing stock prices because a
“reasonable investor” would not consider them in
making trading decisions. See Pet. App. 19a–22a. The
question Goldman asked the courts to decide at the
certification stage was not just similar to materiality—it was materiality: “whether the ‘reasonable investor’ would have considered the omitted information
significant at the time.” Basic, 485 U.S. at 232.3 As the
Second Circuit correctly explained, Goldman’s argument that class certification is barred because of the
generic nature of the misrepresentations was contrary
to this Court’s construction of Rule 23 in Amgen and
Halliburton II. See Pet. App. 23a–24a.
In Amgen, this Court explained that proof of materiality is not required for class certification in cases
where plaintiffs invoke the Basic presumption because “such proof is not necessary to ensure satisfaction of Rule 23(b)(3)’s predominance requirement.”
568 U.S. at 459, 467 n.4; see also Halliburton II, 573
U.S. at 282 (affirming Amgen’s holding that materiality “does not bear on the predominance requirement
of Rule 23(b)(3)”). “Rule 23(b)(3) requires a showing
that questions common to the class predominate, not
that those questions will be answered, on the merits,
in favor of the class.” Amgen, 568 U.S. at 459.
––––––––––––––––––––––––
See also Pet. App. 21a (quoting Goldman’s argument that
general misstatements “are incapable” of price impact “for the
same reasons that those statements are immaterial as a matter
of law (as well as fact)” (emphasis added)).
3

12
Amgen explained that proof of materiality is not
necessary to satisfy Rule 23(b)(3)’s predominance requirement for two reasons. First, because “materiality
is judged according to an objective standard,” it is “a
question common to all members of the class.” Id. at
459; see also id. at 467. Second, a “failure of proof on
the element of materiality would end the case for one
and for all; no claim would remain in which individual
reliance issues could potentially predominate.” Id. at
468. Win or lose, the claims of the class rise or fall together as to the issue of materiality. Because the question of materiality “does not give rise to any prospect
of individual questions overwhelming common ones,”
id. at 474, proof of materiality is not necessary to satisfy Rule 23(b)(3)’s predominance requirement. Id. at
466–70.
Halliburton II likewise explained that when “the
other Basic prerequisites … are proved at the class
certification stage”—and have not been rebutted by a
showing of market inefficiency or absence of price impact—“the common issue of materiality can be left to
the merits stage without risking the certification of
classes in which individual issues will end up overwhelming common ones.” 573 U.S. at 282. Thus, Halliburton II reaffirmed Amgen’s holding that the “discrete issue” of materiality is to be “wholly confined to
the merits stage.” Id.
The same reasoning applies here. The argument
that reasonable investors would consider a generic
misrepresentation insignificant to their trading decisions—like other arguments concerning materiality—
raises an issue that is objective and does not depend
on the individual circumstances of particular investors. Because the answer to that question is the same
for everyone, it can be resolved “in one stroke,” for all

13
members of the class. Wal-Mart, 564 U.S. at 350.
Moreover, a negative answer to the question whether
a reasonable investor would consider a generic statement significant does not leave open the possibility of
different outcomes for claims of different class members: A finding that the misrepresentation would be
immaterial to a reasonable investor “end[s] the case
for the class and for all individuals alleged to compose
the class.” Amgen, 568 U.S. at 474 (emphasis added).
The argument that Goldman made below thus
poses a common question fit for resolution on a classwide basis. Cf. Tyson Foods, 136 S. Ct. at 1045 (a question that “is susceptible to generalized, class-wide
proof” is a common one). The class is “entirely cohesive” as to the issue because the generic nature of a
misrepresentation does not bear on whether any one
plaintiff is differently situated from another. See
Amgen, 568 U.S. at 460.
In other words, whether a misstatement is “too generic” to be actionable is not a question that must be
answered for the court to determine whether the case
may proceed as a class action. Rather, that question is
one of the common questions that predominates in a
class action alleging violations of section 10(b) and
Rule 10b-5, and it is properly addressed on the merits,
not at certification. To hold otherwise is contrary to
Amgen and Halliburton II.
Indeed, Amgen rejected an argument identical to
the one that Goldman made below. Amgen argued
that class certification “must be denied” where an alleged misrepresentation is not material because such
a misstatement “by definition[] would have no impact
on Amgen’s stock price in an efficient market.” Amgen,
568 U.S. at 459. Just as Amgen was wrong to assert

14
that class certification is precluded because an immaterial misstatement lacks price impact “by definition,”
see id., Goldman was wrong to argue below that class
certification is precluded because generic misstatements “are incapable” of price impact “as a matter of
law,” Pet. C.A. Br. 46.
As the court of appeals recognized, the fundamental problem with the argument Goldman presented
below is that it confused the issue of predominance
with the merits of the plaintiffs’ case. Amgen explained that the “pivotal inquiry” is whether common
questions predominate over ones requiring individualized proof, 568 U.S. at 467, not whether those questions will be answered in favor of the class, id. at 459.
If the answer to a common question is the same for all
members of the class—that is, if the individual circumstances of the class members do not “bear on the
inquiry”— the class “will prevail or fail in unison.” Id.
at 460. Here, even if Goldman were correct that the
generic nature of a misstatement renders it immaterial and thereby incapable of price impact as a matter
of law, its argument still would present a question
whose answer is the same for all members of the class.
And the claims of all class members will rise or fall
together depending on how that question is answered.
The existence of such a question is one of the central
justifications for class certification, not a reason for
denying certification “as a matter of law.”

15
II. Evidence relating to the nature of a
misstatement
is
pertinent
at
the
certification stage only to the extent that it
is relevant to assessing whether defendants
have rebutted Basic’s presumption of
reliance.
Although courts may not deny certification based
on a determination that a generic misrepresentation
is immaterial, they may consider the contents of the
misstatements to the extent that the substance of
those statements is part of the evidence relevant to
whether the statements lacked price impact. See U.S.
Br. 19–23. The parties themselves largely agree on
this point. See Resp. Br. 20; Pet. Br. 26. Indeed, Goldman has now abandoned the argument, rejected below, that a misrepresentation’s generic nature renders it legally incapable of having price impact.
Before this Court, Goldman attempts to recast its
argument as one about the evidentiary significance of
its statements’ generic nature, rather than about
whether, as a matter of law, a reasonable investor
could have considered them significant. Even assuming Goldman has not waived its current argument, see
Resp. Br. 34–36, that argument provides no basis for
setting aside the judgment below. The court of appeals
did not hold that courts are prohibited from considering the nature of a defendants’ statement as part of
the evidentiary mix in determining whether they in
fact had price impact, and its judgment should be affirmed.
A. This Court held in Halliburton II that the Basic
presumption of reliance may be rebutted at the certification stage either by evidence that the market in
which securities were traded was not efficient, or by

16
evidence showing directly that the misrepresentation
did not affect the stock price. 573 U.S. at 280–82. Absence of price impact, the Court explained, goes to
Basic’s “fundamental premise” that a misrepresentation is among the information reflected in the stock
price. Id. at 283 (quoting Halliburton I). If the misrepresentation did not affect the stock price, the plaintiffs
cannot be presumed to have relied on the misrepresentation through the integrity of the stock price, for
“the basis for finding that the fraud had been transmitted through market price would be gone.” Id. at
281 (quoting Basic, 485 U.S. at 248). Moreover, the
Court explained, courts must consider evidence concerning price impact at the certification stage because,
by determining the applicability of the Basic presumption of reliance, such evidence bears on Rule
23(b)(3)’s predominance requirement. Id. at 283.
The nature of a misrepresentation (including its
generality or specificity) may have evidentiary relevance to the district court’s assessment of whether the
defendants’ misstatements in fact had no price impact. For example, a defendant might adduce evidence
from an expert witness opining on an event study examining the impact that misrepresentations at certain levels of generality (or specificity) had on a company’s stock price. Or a defendant “might attempt to
disprove price impact through evidence that the nature of the misstatements alleged in a particular suit
made them unlikely to be incorporated into the market price.” U.S. Br. 22. Evidence relating to the contents of a misrepresentation—including whether they
were generic or specific—thus may be considered
among the total mix of evidence in the district court’s
assessment of price impact at the certification stage,
just as other evidence bearing on price impact may be

17
considered in the court’s factual assessment of
whether the Basic presumption has been rebutted.
B. There is a difference between considering the
contents of alleged misrepresentations as part of the
evidence bearing on whether those statements in fact
had a price impact, on the one hand, and holding categorically that assertedly generic statements were legally incapable of having price impact because a reasonable investor would not consider them significant,
on the other. The latter is what Goldman advocated
below, and what Judge Sullivan in dissent would have
held. See Pet. App. 45a (“[N]o reasonable investor
would have attached any significance to the generic
statements on which Plaintiffs’ claims are based.”)
(Sullivan, J., dissenting). But as the United States explains, the “reasonable investor” inquiry and the factual question whether particular statements actually
affected securities prices are very different questions
that may have different answers: Even in generally
efficient markets, prices may at times respond to information that the objectively reasonable investor
would find immaterial, and vice versa. See U.S. Br.
16–17.
To be sure, the nature of misstatements may have
evidentiary bearing on the price-impact determination at the certification stage. For example, expert
witness testimony opining that price effects were attributable to specific information that was not misrepresented, rather than to more general alleged misstatements, is fair game in a court’s assessment of
whether the defendants have rebutted the Basic presumption of reliance by showing lack of price impact.
What Amgen holds, however, and what Halliburton II
confirms, is that a district court must refrain from assessing the issue of materiality in the guise of price-

18
impact evidence at the certification stage. See Amgen,
568 U.S. at 459 (materiality is not a certification question); id. at 466 (“Rule 23 grants courts no license to
engage in free-ranging merits inquiries at the class
certification stage.”). Only price impact—not materiality—is pertinent to Rule 23(b)(3)’s predominance inquiry. See Halliburton II, 573 U.S. at 282–84 (affirming Amgen). And this Court has made clear that
“[m]erits questions may be considered to the extent—
but only to the extent—that they are relevant to determining whether the Rule 23 prerequisites for class
certification are satisfied.” Amgen, 568 U.S. at 466.
C. The decisions below carefully walked the appropriate line. Therefore, the Second Circuit’s decision
should neither be reversed, as Goldman advocates, see
Pet. Br. 5–6, nor vacated for clarification, as the
United States suggests, see U.S. Br. 20.
In its decision in Goldman’s first appeal in this
case, the Second Circuit (in an opinion written by
Judge Wesley, who also wrote the opinion currently
subject to review) explicitly held that Goldman was
entitled to introduce evidence that the market did not
respond to information reporting Goldman’s conflicts
of interests. Pet. App. 76a–78a. The court stated that
the fact that this evidence “touches on materiality” did
not bar its consideration at the certification stage to
the extent that it was relevant to price impact. Id. at
77a–78a.
On remand, the district court complied with the
court of appeals’ directive. Goldman has not identified
any evidence that it offered but the district court refused to consider. Neither Goldman nor Judge Sullivan’s dissent points to any witness testimony or documentary exhibit that was inaccurately characterized

19
or omitted from the district court’s assessment of price
impact. Goldman contends that the decision below
was wrong because “[i]t is simply intuitive” that a generic statement lacks price impact, see Pet. Br. 27, but
intuition is not evidence. Perhaps a different judge
would weigh the evidence differently and reach a different conclusion, as Judge Sullivan would have. But
that possibility does not rise to the level of clear error.
See Pet. App. 37a (“It might well be that were one of
us given the same task as that of the district judge we
would conclude otherwise; but we cannot say there
can only be one conclusion from the record presented.”) (majority opinion).
The court of appeals considered the district court’s
careful review of the record and found no clear error
in the district court’s determination that Goldman
failed to rebut the Basic presumption. See Pet. App.
29a–32a. Nothing in the court of appeals’ analysis
suggests that the court silently reversed its own previous ruling and affirmed the district court based on
the erroneous view that the nature of the alleged misrepresentations is irrelevant to the determination of
price impact. Rather, the court of appeals correctly rejected Goldman’s (and Judge Sullivan’s) invitation
that it decide that Goldman’s statements were “too
general as a matter of law,” Pet. App. 37a, and thus
legally incapable of affecting price because a reasonable investor would not consider them significant. That
conclusion is consistent with this Court’s decisions in
Amgen and Halliburton II that such common merits
questions going to materiality should not be decided
at the certification stage. At the same time, the court
of appeals did not go too far by holding that the nature
of the statements must be disregarded by the district
court in weighing the evidence on the factual question

20
of price impact. The court of appeals thus committed
no reversible error, and there is nothing unclear in its
reasoning that requires vacatur and remand.
III. Expanding certification determinations to
require proof of merits issues undermines
Rule 23’s purposes.
Goldman contends that the decision below would
impose on defendants “serious costs” and increased
pressure to settle unmeritorious claims. Pet. Br. 35–
36. To the contrary, expanding the scope of the certification inquiry to require that plaintiffs succeed on a
merits issue (such as whether misstatements that are
said to be generic in nature are material) would perversely increase the costs and settlement pressures
exerted on defendants.
Requiring plaintiffs to prevail on merits issues at
the certification stage would impose significant costs
on the parties and increase the burden to the court.
Thorough discovery would have to be taken on merits
issues before certification of the class, increasing the
scope and costs of pre-certification discovery and delaying the court’s certification decision. The demands
of facing an uncertified class action would increasingly approximate those of defending a certified class
action. A certification hearing would replicate the
trial on the merits of the class’s claims, thereby increasing the costs and burdens to the parties and the
resources expended by the court. The upshot would be
an increase in the costs and settlement pressures on
defendants before the certification stage.
The stakes of the certification decision also would
be higher. For example, if the court were to find at the
certification stage that a reasonable investor could
rely on a misstatement that was assertedly too generic

21
in nature, the defendant would not be able to carry its
burden on summary judgment on that issue. The
heightened significance of the certification decision
would accentuate the shift of the burden of defending
the case from after the certification stage to before.
Further, requiring plaintiffs to show at the certification stage that they will prevail on the merits of
their claim would undermine the principal benefits of
class actions: the gains in efficiency, fairness, and repose that accrue when common issues are litigated together and yield judgments binding on plaintiffs and
defendants alike. A finding at the certification stage
that there was a failure of proof on the merits of the
class claims would not be binding on anyone other
than the named plaintiff. See Smith v. Bayer Corp.,
564 U.S. 299, 315 (2011) (“[I]n the absence of a certification under … Rule [23], the precondition for binding [a nonparty class member] was not met. Neither a
proposed class action nor a rejected class action may
bind nonparties.”). A decision rejecting class certification would not even bar another plaintiff from trying
to certify an identical class in a different case presenting the same claim. See id. at 316 (acknowledging that
“under our approach class counsel can repeatedly try
to certify the same class”). Shifting the determination
of a merits issue to the certification stage thus would
give the defendant no protection against successive
suits.
As this Court recognized in Amchem, Rule
23(b)(3)’s objective is to cover cases “in which a class
action would achieve economies of time, effort, and expense, and promote ... uniformity of decision as to persons similarly situated, without sacrificing procedural
fairness or bringing about other undesirable results.”
521 U.S. at 615 (quoting Fed. R. Civ. P. 23, Advisory

22
Comm. Notes to 1966 Amendments, Subdivision
(b)(3)). Under Basic, where there is an efficient market and a public misrepresentation, plaintiffs may invoke a presumption of classwide reliance, thereby permitting the common resolution of both the question of
reliance and the common questions of materiality, falsity, scienter, and causation. The considerations of
fairness and judicial economy on which Rule 23 is
based are best served by recognizing those common
questions for what they are and permitting their resolution on the merits.
CONCLUSION
For the foregoing reasons, the decision below
should be affirmed.
Respectfully submitted,
WENDY LIU
Counsel of Record
SCOTT L. NELSON
ALLISON M. ZIEVE
PUBLIC CITIZEN LITIGATION
GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
wliu@citizen.org
Counsel for Amici Curiae
March 2021

